U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Gavin Wayne Wright v. United States of America
S.Ct. No. 21-5039
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 24,
2021, and placed on the docket on July 8, 2021. The government’s response is due on August 9,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-5039
WRIGHT, GAVIN WAYNE
USA

KARI S. SCHMIDT
CONLEE, SCHMIDT & EMERSON, LLP
200 W. DOUGLAS
STE. 300
WICHITA, KS 67202
316-264-3300
KARIS@FCSE.NET

